          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report
Allegations of Irregular Hiring Practices
and Preferential Treatment in the Loan
Programs Office




INS-L-13-06                      August 2013
                                  Department of Energy
                                    Washington, DC 20585

                                         August 21, 2013


MEMORANDUM FOR THE EXECUTIVE DIRECTOR, LOAN PROGRAMS OFFICE



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                          for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Allegations of Irregular
                         Hiring Practices and Preferential Treatment in the Loan Programs
                         Office"


BACKGROUND
The Department of Energy's (Department) Loan Programs Office (LPO) grants and monitors
loans to private sector entities to develop new clean energy technologies. LPO was authorized
by the Energy Policy Act of 2005 with the goal of creating jobs, reducing dependency on foreign
oil, improving the Department's environmental legacy, and enhancing American competitiveness
in the global economy of the 21st century.

As with most Departmental programs, LPO relies on both Federal and contractor employees to
carry out its mission. With the support of the Department's human resources officials, LPO
recruits and hires Federal employees. Federal regulations prohibit employees from granting any
preference or advantage to applicants for Federal employment, unless specifically prescribed by
law. Notably, Title 5 Code of Federal Regulations (CFR) 2635.702, Use of Public Office for
Private Gain, precludes Federal employees from using public office for the private gain of
friends or others with whom the employee is affiliated in a nongovernmental capacity. Further,
Title 5 CFR 2635.502, Personal and Business Relationships, indicates that a Federal employee's
participation in matters involving specific parties could cause a reasonable person to question the
impartiality of the Federal employee. Regarding contractor support, with limited exception,
Federal employees are prohibited from becoming involved in contractor employee personnel
matters. Departmental guidance prohibits such activity and notes that Federal employee
involvement in contractor hiring decisions clouds the traditional and appropriate allocation of
contract performance and cost risks between the Government and its contractors.

The Office of Inspector General received a complaint alleging that a senior LPO official:
(1) hired a "friend" for a Federal program position; and (2) directed a contractor to hire six
individuals. We initiated this inspection to examine the facts and circumstances surrounding
these allegations.
RESULTS OF INSPECTION

Our inspection identified actions taken by a senior LPO official that could have caused others to
perceive a misuse of position. Specifically, we substantiated the allegation that the senior LPO
official hired a "friend" for a Federal position. Regarding the second allegation related to
directed contractor hiring, we found that the senior LPO official had, in fact, not only referred six
individuals, but actually referred a total of 10 individuals with whom the official was affiliated,
to a support service contractor for hiring consideration. However, we did not substantiate the
allegation that the official actually directed the hiring of the referred individuals. Nonetheless,
the actions by the senior LPO official could have created the appearance that the official was
inappropriately involved in the contractor's hiring process.

To ensure a commitment to the letter and spirit of current policies, in our view, it would have
been in the best interest of the LPO official to have: (1) taken recusal actions with regard to the
hiring of a friend for a Federal position; and (2) taken steps to demonstrate that special care was
exercised in maintaining an arm's-length relationship with the contractor regarding its hiring
decisions.

                          Participation in a Federal Personnel Selection

We substantiated the allegation that a senior LPO official hired a "friend" for a Federal position.
The senior LPO official acknowledged relying on personal knowledge of the individual's prior
work experience when making the final selection. While the senior LPO official told us that the
selection was based on merit alone, the official conceded that there had been a longstanding
personal relationship with the successful applicant. The official also indicated that another
individual had been hired for the same type of position at the same time, and that full
consideration was given to all applicants. The senior official pointed out, and we verified, that
both of the individuals selected possessed the basic qualifications for the position as specified in
the vacancy announcement and had been properly referred for consideration by human resources
officials.

The circumstances surrounding the individual's selection may have been influenced, at least in
part, by the senior LPO official's prior relationship and past experience. We were unable to
specifically determine whether that was the case and whether the senior LPO official fully
considered other qualified applicants, because no candidate evaluation records existed for this
particular hiring action.

The senior LPO official, as well as other senior LPO managers and employees, explained the
difficulties they had in hiring individuals, particularly those with specific, technical loan program
related expertise. LPO officials also informed us that they recognized potential weaknesses in
their hiring process. Officials told us that in an October 2011 memorandum to the Office of the
Chief Human Capital Officer, LPO changed policies and procedures so that all personnel actions,
including hiring selections were to be approved by the Director of Strategic Initiatives or the
Deputy Director. As such, individuals in the same position as the subject of the complaint no
longer have the individual authority to act as the selecting officials in hiring decisions.



                                                 2
Furthermore, in December 2012, those same policy changes regarding LPO's hiring authorities
were reinforced by LPO's Deputy Director in another memorandum to the Office of the Chief
Human Capital Officer.

                         Involvement in Contractor Personnel Selections

The allegation that a senior LPO official directed a contractor to hire specific applicants was not
substantiated. However, we determined that the senior LPO official actively participated in the
receipt and review of resumes for contractor applicants. The senior official then forwarded the
resumes and/or names of 10 individuals to an LPO support services contractor for hiring
consideration. A contractor management official informed us that all of those individuals were
referred by the senior LPO official and were subsequently hired as contractor employees.

The Department's Office of Procurement and Assistance Management issued Policy Flash 2011-
23, and added Chapter 37.114, Federal and Contractor Roles in the Federal Workplace, to the
Department's Acquisition Guide in December 2010. According to the policy guidelines, Federal
employees generally should not be involved in contractor personnel decisions. The guidelines
note that Federal employee involvement in contractor hiring decisions clouds the traditional and
appropriate allocation of contract performance and cost risks between the Government and the
contractor. The guidelines also indicate that, in rare cases, Federal involvement may be
necessary when there is a pressing Federal interest in the contractor's selection of certain
employees due to the nature of the services or supplies being procured. However, in those
instances, the risks of violating prohibitions regarding personal services or inherently
governmental functions must be explicitly acknowledged. Although the guidelines prohibited a
Federal manager from directing a contractor to hire a particular individual, Federal managers are
allowed to provide a contractor with names of competent individuals.

We determined that the senior LPO official actively forwarded resumes or referred names of the
applicants with whom the official had an affiliation. The official told us that that the individuals
were referred because they appeared to possess the qualifications to fill support service
contractor positions for which the LPO had an urgent need and not because of personal
connections. When interviewed, the contractor stated that the senior LPO official referred all 10
applicants for employment consideration and that they were subsequently hired. Also, during
interviews we learned that seven applicants provided their resume to the senior LPO official and
the remaining three applicants were advised by the senior LPO official to contact the contractor
directly. The senior LPO official acknowledged screening applicants' resumes and, in some
cases, conducting preliminary phone and in person interviews of certain applicants prior to
referring specific resumes to the contractor for employment consideration. During our interview,
the senior LPO official recalled forwarding four applicants' resumes to the contractor while
advising three applicants to contact the contractor by phone and the other three to visit the
company's website.

The senior LPO official denied that the contractor was directed to hire the referred individuals.
Similarly, the contractor informed us that each applicant was competitively screened. He also
asserted that the senior LPO official informed him that he was not obligated to hire the 10
applicants. Therefore, the contractor manager said that he did not feel pressured to hire those

                                                 3
individuals. The contractor told us that when the senior LPO official referred individuals the
official would state, "Here's a resume that might be a good fit for a position you are trying to
fill." The contractor also mentioned that the resumes were generally passed by hand or emailed
by the senior LPO official. Finally, the contractor explained that there was no direction to hire
any of those individuals and as such there was no obligation to hire. We noted that 9 of the 10
applicants were hired by the LPO contractor for technical positions, and the remaining individual
was hired by the LPO contractor to serve as the senior LPO official's executive assistant.

                                  Action Taken and Path Forward

We noted that the LPO officials took certain actions to strengthen its hiring processes, including
establishing interview panels and limiting hiring authorities to a select few LPO managers, which
excluded the senior official and other LPO officials. Further, LPO officials informed us that they
disseminated the Office of Inspector General's report on Review of Allegations Regarding Hiring
and Contracting in the Office of Energy, Efficiency and Renewable Energy (OAS-SR-10-04,
September 2010) to remind staff of their roles and responsibilities regarding their involvement
with the hiring of Federal and contractor personnel.

The appearance of favoritism in the Federal hiring process and active involvement in the
contractor staffing process could erode the public trust in the hiring process and could damage
the relationship between the Department and its contractors. Because the senior LPO official's
actions could have caused others to perceive that Federal and contractor hiring was influenced,
we believe continued vigilance in this area is warranted. In particular, we suggest that steps be
taken to ensure strict compliance with Federal ethical standards and Department published
guidance on Federal officials' involvement in Federal and contractor hiring decisions.

SUGGESTED ACTIONS

To help prevent the recurrence of the issues we observed, we suggest that the Loan Programs
Office (LPO), in coordination with the General Counsel:

      1. Determine whether the senior LPO official violated the standards of ethical conduct or
         engaged in irregular hiring practices and take necessary action.

Further, we suggest that the Loan Programs Office:

      2. Conduct training to ensure that LPO officials clearly understand and adhere to Federal
         hiring regulations and prohibited personnel practices.


Attachment

cc:    Deputy Secretary
       Chief of Staff
       General Counsel
       Chief Human Capital Officer

                                                 4
                                                                                        Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to examine the facts and circumstances surrounding alleged
hiring practice irregularities within the Loan Programs Office (LPO). Specifically, it was alleged
that a senior LPO official hired a friend for a Federal Program position, and, directed a contractor
to hire six individuals as contractors.

SCOPE

This allegation-based inspection was conducted from July 2012 to August 2013, at the
Department of Energy (Department) Headquarters in Washington, DC.

METHODOLOGY

To accomplish the inspection objective, we:

    • Reviewed and analyzed Federal and Department hiring regulations as well as LPO
      contractual, organizational and personnel documentation; and

    • Interviewed officials from LPO, including Federal and contractor employees, the Office
      of the Chief Human Capital Officer, Office of the General Counsel and the Office of
      Headquarters Procurement Services.

We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.

We held an exit conference with LPO officials on Monday, August 12, 2013.




                                                 5
                                                                         IG Report No. INS-L-13-06


                                CUSTOMER RESPONSE FORM
I   Inspector General has a continuing interest in improving the usefulness of its products. We wish
    to make our reports as responsive as possible to our customers' requirements, and, therefore, ask
    that you consider sharing your thoughts with us. On the back of this form, you may suggest
    improvements to enhance the effectiveness of future reports. Please include answers to the
    following questions if applicable to you:

           1. What additional background information about the selection, scheduling, scope, or
              procedures of the audit or inspection would have been helpful to the reader in
              understanding this report?

           2. What additional information related to findings and recommendations could have been
              included in the report to assist management in implementing corrective actions?

           3. What format, stylistic, or organizational changes might have made this report's overall
              message more clear to the reader?

           4. What additional actions could the Office of Inspector General have taken on the issues
              discussed in this report that would have been helpful?

           5. Please include your name and telephone number so that we may contact you should we
              have any questions about your comments.


    Name                                           Date

    Telephone                                      Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                    Office of Inspector General (IG-1)
                                          Department of Energy
                                         Washington, DC 20585

                                       ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of f Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
